.1

»

APPENDIX

1

INDEX TO APPENDICES

Page

Appendix A Opinion and Judgement of the United States Court
of Appeals for the Eleventh Circuit.
(Unpublish, July 22nd, 2020).................................

App. 1

Appendix B Judgement of the United States District Court
for the Southern District of Florida
(December 30th, 2019).................................

App. 5

Appendix C Order Denying Rehearing in the United States Court
of Appeals for the Eleventh Circuit
(August 25th, 2020).................................................

App. 7

Appendix D Jurisdictional error is Fundamental Error, this Prosecution failed,
for not disclose fundamental materially exculpatory evidence in
government’s possession favorable to defense, that made this
proceeding irregular and invalid. Filed on Brief & Panel
Rehearing.
(July 24th, 2020 & July 31st, 2020)................................................. App. 8
Permanent Certificate of Registry by St Kitts & Nevis Authority
(February 2009 through April 2012)..........................................

App. 9

Deletion Certificate of Registry by St Kitts & Nevis Authority
(May 11th, 2010)....................................................................

App. 11

CBP Form 1300 (02/02) Homeland Security Declaration
19 CFR Part 4, Vessel Clearance Statement
(April 15th, 2010)..........................................................

App. 13

Full Term International Oil Pollution Prevention Certificate
issue by IS on behalf of St Kitts & Nevis
(February 2008 through Sept 2013)....................................

App. 16

Island Express 1 Detail Port State Control Inspection (USCG)
Class Society (IS), Flag State: St Kitts & Nevis,
(May 4th, 2010)......................................................................

App. 23

Appendix E Petition for Rehearing in United States Court of
Appeals for the Eleventh Circuit.
(July 31st, 2020)..............................................
Appendix F

Criminal Jury Trial. Transcript Excerpts

App. 25
App. 30

App.l

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10124
Non-Argument Calendar
D.C. Docket No. 0:19-cv-62889-WPD; 0:18-cv-60984-WPD.
HUGO PENA,
Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Defendant-Appellee
Appeal from the United States District Court
for the Southern District of Florida
[Filed July 22nd, 2020]
Before JILL PRYOR, LAGOA, and TJOFLAT, Circuit Judges:
PER CURIAM:
Hugo Pena, proceeding pro se, appeals the District Court’s order denying his third petition for
a writ of error coram nobis. The Government has responded by filing a motion for summary
affirmance and to stay the briefing schedule.
Summary disposition is appropriate where time is of the essence, such as “situations where
important public policy issues are involved or those where rights delayed are rights denied,” or
where “the position of one of the parties is clearly right as a matter of law so that there can be no

App. 2
substantial question as to the outcome of the case, or where, as is more frequently the case, the
appeal is frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).1 An
appeal is frivolous if it is “without arguable merit either in law or fact.” Napier v. Preslicka, 314
F.3d 528, 531 (11th Cir. 2002).
We review a district court’s denial of coram nobis relief for abuse of discretion. United States
v. Peter, 310 F.3d 709, 711 (11th Cir. 2002) “A writ of error coram nobis is a remedy available
to vacate a conviction when the petitioner has served his sentence and is no longer in custody, as
is required for post-conviction relief under 28 U.S.C. § 2255.” Id. at 712. It “is an extraordinary
remedy of last resort available only in compelling circumstances where necessary to achieve
justice.” United States v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2002). We have noted that it is
“difficult to conceive of a situation in a federal criminal case today where coram nobis relief
would be necessary or appropriate.” Lowery v. United States, 956 F.2d 227, 229 (11th Cir. 1992)
(alteration adopted) (quoting United States v. Smith, 331 U.S. 469, 475 n.4, 67 S. Ct. 1330, 1334
n.4 (1947)).
Accordingly, the bar for granting a petition for a writ of error coram nobis is high. Alikhani v.
United States, 200 F.3d 732, 734 (11th Cir. 2000). A petitioner may only obtain coram nobis
relief where (1) “there is and was no other available avenue of relief,” and (2) “the error involves
a matter of fact of the most fundamental character which has not been put in issue or passed upon
and which renders the proceeding itself irregular and invalid.” Id. (citations omitted). The
Supreme Court has explained that a writ of error coram nobis is “traditionally available only to
bring before the court factual errors material to the validity and regularity of the legal proceeding
itself, such as the defendant’s being underage or having died before the verdict.” Carlisle v.
United States, 517 U.S. 416, 429, 116 S. Ct. 1460, 1467 (1996) (internal quotation omitted).
Furthermore, we have held that district courts may consider coram nobis petitions only when the
petitioner “presents sound reasons for failing to seek relief earlier.” Mills, 221 F.3d at 1204.
Issues that could have been raised earlier do not warrant coram nobis relief, including claims
about non-jurisdictional defects in an indictment. See Alikhani, 200 F.3d at 734 (concluding that
the defendant’s claims were not cognizable on coram nobis review because they could have been
raised in a pretrial motion). Jurisdictional errors, however, are fundamental errors that warrant
coram nobis relief because they render the proceedings irregular and invalid. See id. (“A genuine
claim that the district court lacked jurisdiction to adjudicate the petitioner guilty may well be a
proper ground for coram nobis relief as a matter of law.”); see also Peter, 310 F.3d at 711, 715lb (concluding that a defect in the indictment, which alleged specific conduct that was no longer
a federal crime, constituted a jurisdictional error warranting coram nobis relief).
Here, there is no substantial question that the District Court did not abuse its discretion in
denying Pena’s petition for a writ of error coram nobis. First, Pena failed to present sound
reasons for failing to seek relief earlier. Pena was sentenced in 2010 to five years of probation,
1 In Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th Cir. 1981) (en banc), we adopted as binding precedent all
decisions of the former Fifth Circuit handed down prior to September 30, 1981.

App. 3
which expired in 2015, but he still waited roughly four years after that to file the instant petition.2
Second, Pena’s general allegations of fraud and prosecutorial misconduct failed to demonstrate
any fundamental error that made his prosecution irregular and invalid. He argues that the
District Court lacked subject-matter jurisdiction to convict him for violating the MARPOL
treaty because the vessel was actually flagged under St. Kitts & Nevis, rather than Panama,
but he offers no support either to prove this assertion or to show that it rendered the
proceedings irregular or invalid.3
Because Pena failed to present sound reasons for failing to seek relief earlier and failed to
demonstrate any fundamental error that made his prosecution irregular and invalid, there is no
substantial question that the District Court did not abuse its discretion in denying Pena’s petition
for a writ of error coram nobis. We therefore GRANT the Government’s motion for summary
affirmance and DENY the accompanying motion to stay the briefing schedule as moot.

2 The instant petition is the latter of two petitions for a writ of error coram nobis filed by Pena in November and
December of 2019. The District Court denied Pena’s November 2019 petition, and Pena did not appeal that decision.
Pena had also filed a number of other collateral attacks in April 2018, including his first petition for a writ of error
coram nobis, all of which the District Court denied.
3 We previously affirmed Pena’s conviction in United States v. Pena, 684 F.3d 1137 (11th Cir. 2012), rejecting his
arguments that the United States lacked jurisdiction to prosecute him under MARPOL, that the indictment was
insufficient or defective, that the jury instructions were erroneous, and that the evidence was insufficient to support
the jury’s verdict that Pena violated MARPOL.

App. 4
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10124
District Court Docket Nos.
No. 0:19-cv-62889-WPD; 0:18-cv-60984-WPD.
HUGO PENA,
Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Defendant-Appellee
Appeal from the United States District Court
for the Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal
is entered as the judgment of this Court.
Entered: July 22, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: JeffR. Patch

App. 5

APPENDIX B
UNITED STATE DISTRICT COURT
DOUTHERN DISTRICT OF FLORIDA
Case No: 19-62889-CIV-WPD
(18-60984-CIV-WPD)
(10-6015 8-CR-WPD)
[Filed December 30th, 2019]
Hugo Pena
Petitioner
vs
United States
Respondent
ORDEN DENYING PETITION; WARNING ABOUT SANTIONS.
THIS CAUSE is before the Court on Petitioner’s pro se December 5, 2019 Petition for Writ of
Error Coram Nobis 1 [D.E.-l] and the Court having considered the court file, and having presided
over this cause, finds as follows:
1. On June 15, 2010, Pena was charged in a Superseding Indictment with Conspiracy,
Failure to Conduct a MARPOL Survey, and Making a False Statement, [CR-DE-31]. The crime
occurred in February through May 2010.
2. On September 24, 2010, Pena was found guilty of the last two charges, [CR-DE-117].
The Court had dismissed the conspiracy count at trial.
3. On December 20, 2010, Pena was placed on five (5) years of probation. [CR-DE-142],
4. On June 12, 2012, the Eleventh Circuit of Appeal affirmed. [CR-DE-171]. U.S. v Pena 684
F. 3d 1137 (11th Cir. 2012). Mandate issued on August 14, 2012. The U.S. Supreme Court denied
certiorari on January 7, 2013. [CR-DE-173]. Pena v U.S., 568 U.S. 1088 (2013).
1 The Clerk probably should have opened up a new case number for this successive coram nobis attack. Given the
summary disposition of this matter, the court will not ask the clerk to jump through the hoops.

App. 6
5. On May 8, 2013, this Court denied a Motion for Early Termination of Probation. [CR-DE177]. Another Motion for Early Termination of Probation was denied on April 23, 2014. Pena’s
probation expired on December 20, 2015.
6. On April 17, 2018, Pena filed some collateral attacks, [CR-DE-182, 183, 184], Those
motions were dismissed on April 18, 2018. [CR-DE-187].
7. In that order, the Court indicated that coram nobis would not lie where Pena had not
established all the coram nobis requirements. Rodriguez-Lupo v U.S., 450 Fed. Appx. 688 (9t
Cir. 2011); Jackson v U.S., 375 Fed. Appx. 958, 959 (11th Cir. 2010).
8. In an April 21, 2018 [DE-1 in 18-60984-CIV] coram nobis petition, Pena sought to set
aside his criminal conviction. The Court agreed with the Government’s response. Pena had
proffered no sound reasons for failing to seek relief; this remedy was reserved for extraordinary
cases U.S. v Mills, 221 F. 3d 1201, 1204 (1 l,h Cir. 2000) cert, denied, 531 U.S. 1144 (2001). The
Court denied the motion on June 5, 2018. [DE-17 in 18-60984-CIV]. No appeal was taken.
9. In a successive November 21, 2019 collateral attack, Pena advanced no additional grounds
to grant any extraordinary relief. The Court denied relief on November 22, 2019. [DE-6]. No
appeal has been filed.
10. In this latest collateral attack, Pena repeats most of his coram nobis complaints. Pena’s
relief was to appeal the court’s prior denials of his coram nobis complaints, not just keep re­
filling them.
Wherefore, Pena’s Petition for Writ of Error Coram Nobis [DE-1] is Denied.
The Clerk shall close this case and deny any pending Motions as Moot. In an abundance of
caution, the Court denies a Certificate of Appealability. Pena is warned that further abusive
litigation may result in sanctions. Court cannot afford to expend limited resources on repetitive,
frivolous motions.
DONE AND ORDERED in Chamber at Fort Lauderdale, Broward County, Florida, this 11th,
day of December 2019.
/s/
United States District Judge
Copies furnished to:
Hugo Pena
10241 NW 9th, Street, #109-5
Miami, FL 33172
Jaime A. Raich, AUSA

App. 7
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10124
[Filed August 25th, 2020]
HUGO PENA.
Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Defendant-Appellee
Appeal from the United States District Court
for the Southern District of Florida
BEFORE: JILL PRYOR, LAGOA, and TJOFLAT, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by the Appellant is DENIED.
ORD-41
/s/ GBT

App. 8
APPENDIX D
[Filed July 31st, 2020]
Jurisdictional errors are Fundamental Errors, this Prosecution failed, for not disclose materially
exculpatory evidence in government’s possession favorable to defense, that made this proceeding
irregular and invalid. Appendix Brief, Addendum 2 Panel Rehearing and 0:19-cv-62889-WPD;
0:18-cv-60984-WPD. Error of Coram Nobis Petition.
(a) Permanent Certificate of Registry, by St Kitts & Nevis Authority
Date: January 28, 2009 through Sep. 27, 2012.............................

App. 9

(b) Deletion Certificate of Registry by St Kitts & Nevis Authority
Date: May 11,2010................................................................

App. 11

(c) CBP Form 1300 (02/02), Homeland Security Declaration,
19 CFR Part 4, Vessel Clearance Statement,
Date April 15, 2010.........................................................

App. 13

(d) Full Term International Oil Pollution Prevention
Certificate (IOPP) issue by International Register of Shipping, Inc. (IS),
Date: February26, 2009 through Sep 27, 2013........................................

App. 16

(e) Island Express I (EQUASIS)
Detail of Port State Control Inspection (source USCG) (May 4th, 2010)

App. 23

App. 9
ST KITTS & NEVIS
INTERNATIONAL SHIP REGISTRY
PERMANENT CERTIFICATE OF REGISTRY
The Saint Christopher & Nevis Merchant Shipping Act No 24 of 2002
Department of Maritime Affairs, Ministry of Public Works, Utilities, Transport and Posts.

Name of Vessel

Port of Registry

ISLAND EXPRESS I

BASSETERRE

IMO Number

Official Number

Call Sign

MMSI Number

9210804

SKN 1001591

V4WU

341 591 000

Name and Address of Owner (s)

Owner’s IMO Numb.

Coastal Shipping Holding, LLC

5365744

1300 Eller Dr, Fort Lauderdale, FL 33316, USA
General Description of Vessel
Gross Tonnage

Net Tonnage

Deadweight

Type of Vessel

422

127

622

Landing Craft

Length fnf)

Breadth (ml

Depth (ml

Years of built

47.29

10.97

3.06

1999

Hull Number

Builders Name & Place

129

MARINER SHIPYARS, Houma, Louisiana, USA

Material of Hull

Number of Deck

Number of Masts

Number of Funnels

Steel

One (1)

TWO (2)

TWO (2)

Number of Main
Engines

Type: Steam/Motor

Maker/Model of
Eng.

Number of
Generator

Caterpillar 3412 TA

2

Motor

Two (2)

Total Main Engine
Power (Kwl
1074

Speed (Knots!

Radio Equipment

12.0

GMDSS A1 +A2 +A3

App. 10

Classification Society

Company Responsible for Radio Accounting. (AAIC)

INTERNATIONAL
REGISTER OF SHIPPING

MARSATCO (PG03)

Vessel’s Previous Name

Vessel’s Previous Nationality

ISLAND EXPRESS I

REPUBLIC OF HONDURAS

The undersigned hereby confirm that the Owner (s) of the aforementioned with the particulars as
stated here in have submitted an application in the prescribed form with supporting
documentation to have this ship Permanently Registry as a St Kitts & Nevis Ship, according to
the Merchant Shipping Act No 24 of 2002 and have been assigned the distinguished number
shown. Therefore, being duly authorized to do so, I hereby issue this Permanent Certificate of
Registry for the aforementioned ship.
Date of First
Registration

Day of Issue
(for this
Cert.)

Place of
Date of expiry
Issue
(for this Cert)
(for this
Cert.)
22 April, 2008 28 Jan. 2009 London, UK 21 April, 2012

/s/
Nigel E. Smith
International Registrar
of Shipping and seamen
/s/ STAMPED

St Kitts & Nevis International Registry
Tel: +44 (0) 1708 380400.
Fax:+44 (0) 1708 380401
Email: mail@stkittsnevisregisti~v.net
website: www.stkittsnevisregirtv.net

Form Code
CT002

Control Certificate Number
29281

App. 11
ST KITTS & NEVIS
INTERNATIONAL SHIP REGISTRY
DELETION CERTIFICATE
The Saint Christopher & Nevis Merchant Shipping Act No 24 of2002
Department of Maritime Affairs, Ministry of Tourism and International Transport

Name of Vessel

Port of Registry

ISLAND EXPRESS I

BASSETERRE

IMO Number

Official Number

Call Sign

MMSI Number

9210804

SKN 1001591

V4WU

341 591 000

Name and Address of Owner (s)

Owner’s IMO Numb.

Coastal Shipping Holding, LLC

5365744

1300 Eller Dr, Fort Lauderdale, FL 33316, USA

Type of vessel

Numbers of shares (indicated if jointly owned)

LANDING CRAFT

64(100%)

I hereby certify that the registration of the above - mentioned ship as a St Kitts and Nevis ship
was terminated on the date given below and an entry made in the register to this effect.________
Official stamp (s) of issuing office

Signature of the Registrar
/S/

IS/ STAMPED

Full Name:

Nigel E. Smith

Title:

International Registrar of Shipping
and Seamen

Date:

11 MAY 2010

App.12
The abovementioned Owners are obliged to return the St. Kitts & Nevis Certificate of Registry to
the office of the International Registrar of Shipping and Seamen. Failure to do so constitutes an
offence and is liable, on summary conviction, to a fine- Merchant Shipping Act No 24 of 2002,
section 8, (6) (b).
St Kitts & Nevis International Registry
Tel: +44 (0) 1708 380400.
Fax: +44 (0) 1708 380401
Email: mail@stkittsnevisreeistrv.net
website: www.stkittsnevisreeirtv.net

Form Code

Controller Certificate No.

CT022

43338

App. 13
U.S. DEPARTMENT OF HOMELAND SECURITY
Bureau of Customs and Border Protection
VESSEL ENTRANCE OR CLEARANCE STATEMENT.
19CFR Part 4
See Back Instruction

□ ENTRANCES CLEARANCE

TRADE CODES (see back).
1. Manifest
Number.

Check One □ 1 □ 2 EJ 3 □ 4D 5D 6

2.Port Arrival
Departure.

VOYAGE: 242

/ 3.Date & Time of
Arrival / Departure.

Port Everglades, FL.

4/15/2010, 19:00HRS

5. Nationality, Name and Type of
Vessel.

6. Vessel Built/Year.

ST. KITTS & NEVIS.

U.S.A

7 Ft

0 IN

7. Name Address & Phone # of
Ship’s Agent.

MARINER SALE

M/V “ISLAND EXRESS I”

4. Vessel Operation Draft
(in Feet & Inches).

G&G Marine, Inc.
2416 South Andrews Ave, Fort
Lauderdale, FL 33316.

1999

RO/RO (333)

(954) 920-9292
8. Name & Country of Owner.

9. Name & Country of Operator

Coastal Shipping Holding, LLC

G&G Marine, Inc.

1300 Eller Drive, Fort Lauderdale,

2415 South Andrews Ave, Fort Lauderdale,

FL 33316

FL 33316

10.Gross
Tonnage
420

11. Net
Tonnage.
127

12. Port Arrival from /

13. IMO

Official

Departed from.

Number.

Number

Long Island, Bahamas

9210804

SKN10

Call Sign.
V4WU

14.List All Dock Location (continue on the back if necessary)
PORT LAUDANIA, FLORIDA
15.Particular of Voyage (previous and subsequent Port of Calls, include date, underline where
remaining cargo will be discharged) (continue in back if necessary)
DEPARTING FROM:

DEPARTING TO:

PORT LAUDANIA PEV, FL

LONG ISLAND, BAHAMAS
CAT ISLAND, BAHAMAS

App. 14
16. Brief Description of Cargo.

17. S Check if incomplete manifest for export.

LADE CONTAINERIZED

□ Check if Licensed Cargo Load

AND LCL CARGO FOR

□ Check if complete manifest filed for
export

EXPORT
18. No of Crew

19.Number of Passengers

20. List of all carriers on board by SCAC code.
GGME

0

7

22.- Bunkers; Type, Barrels, Value.

21 .-Tonnage Mark.

None

Q None. □ Submerged. □ Not Submerged

Expires.

24. SOLAS
Certificate

9/27/2013

Expires.

23. Load Line

26.No. of Passengers
Embarking /
Disembarking.

25.Passenger Allowed Per
Coast Guard Cert.
N/A

0

N/A
27.Cert. of Fin. Resp. No
(Water Pollution) and Exp.
Date.
No. 847975-14.

28.Cert. Fin. Resp.
(Passenger Death /
Injury).

29. C.F.R. (Passenger
Transport Indemnification)
N/A

N/A

2/15/2011

30. PURPOSE OF ENTRANCE AND CLEARANCE
□ D (Discharge Foreign
Cargo)
□ F (Foreign Cargo to
Remain onboard

□ X (Export Cargo

Be

L (Lade Cargo for
Export)

Aboard on Arrival)
□ N (No Cargo

□

Y (Military Cargo for

Transaction)

Discharge / Laden)

(FROB))
31. Print and Sign Name of Master, Authorized Agent or Officer, Date.
Captain: Ronald Ramon.

/s/.

Date: 4/15/2010

App. 15
FOR CBP USE ONLY
32. □ CBP User

33. □ APHIS User

Fee Paid Up*
35. Cash Receipt.
CF 368 or

34. □ Tonnage

Fee Paid Up*
36. Total Fees

Paid Up*
37. Port Entered / Cleared, Time and Date.

Collected.

Transaction No.

Port Everglades,
15:28 HRS
APR-15,2010

38. CBP Officer Remarks

39. Signature & Title of Officer Receiving Entry/Granting Clearance.
Stamped and Signed. /S/ CBP OFFICER

*Check boxes only if fees not collected

CBP Form 1300 (02/02)

Back instruction omitted for this appendix.

App. 16
Certificate No: RSKN-IOPP-1522
INTERNATIONAL OIL POLLUTION
PREVENTION CERTIFICATE
(Note: This Certificate shall be supplemented by a Record of Construction and Equipment)
Issue under the provisions of the International Convention for the Prevention of Pollution from
Ships, 1973, as modified by the Protocol of 1978 relating thereto, as amended (hereinafter
referred to as “the Convention”) under the authority of the Government of:
ST. KITTS & NEVIS
By INTERNATIONAL REGISTER OF SHIPPING
PARTICULARS OF SHIP
Name of Ship : ISLAND EXPRESS I
Distinctive number of letters : V4WU
Port of Registry : BASSETERRE
Gross Tonnage : 422
Deadweight of Ship (tonnes)1 : —
IMO Number : 9210804
Type of Ship 2 : Oil Tanker/ Ship other an
oil tanker with cargo tanks
coming under regulation
2.2 of Annex 1 of
Convention / Ship other
than any of the above.
Date on which keel was laid :

1999

t

App. 17
THIS IS TO CERTIFY:
1. That the ship has been surveyed in accordance with regulation 6 of Annex I of the
Convention; and
2. That the survey shows that the structure, equipment, systems, fitting, arrangements and
material of the ship and the condition thereof are in all respects satisfactory and that the
ship complies with the applicable requirements of Annex I of the Convention.
This Certificate is valid until 27th SEPTEMBER 2013 subject to surveys in accordance with
regulation 6 Annex I of the Convention.
COMPLETION DATE OF THE SURVEY ON WHICH THIS CERTIFICATE IS BASED: 28th
SEPTEMBER 2008
Issued at MIAMI on. 26th FEBRUARY 2009
STAMPED
/S/
OVID LONDON
AUTHORIZED SIGNATORY

1 For Oil Tankers, Chemical tankers and Gas carrier only
2 Delete as appropriate
IOPP-KN.doc Rev 3 1/1/07

App. 18
FORMA
Supplement to the International Oil Pollution Prevention Certificate (IOPP Certificate)
RECORD OF CONTRUCTION AND EQUIPMENT FOR SHIPS OTHER THAN OIL
TANKERS
In respect of the provisions of Annex I of the International Convention for the Prevention of
Pollution from Ships, 1973, as modified by the protocol of 1978 relating thereto (hereinafter
referred to as “the Convention”)__________________________________________________
Notes:
1.- This form is to be used for the third type of ships as categorized in the IOPP Certificate, i.e.
“ships other than any of the above”. For oil tankers and ships other than oil tankers with cargo
tanks coming under Regulation 2 (2) of Annex I of the Convention, FORM B shall be used.
2.- This Record shall be permanently attached to the IOPP Certificate. The IOPP Certificate shall
be available on board the ship at all times.
3.- If the language of the original Record shall be at least in English, French or Spanish. If an
official language of the issuing country is also used, this shall prevail in case of a dispute or
discrepancy.
4.- Entries in boxes shall be made by inserting either a cross (X) for the answer “yes” and
“applicable” or a dash (-) for the answer “no” and “not applicable” as appropriate.
5.- Regulation mentioned in this Record refer to regulation of Annex I of the Convention and
resolutions refer to those adopted by the International Maritime Organization._______________
1

PARTICULARS OF SHIP

1.1

Name of Ship

: ISLAND EXPRESS I

1.2

Distinctive Number or letter

: V4WU

1.3

Port of Registry

: BASSETERRE

1.4

Gross tonnage

: 422

1.5

Date of Build

1.5.1

Date of Building Contract

1.5.2 Date on which keel was laid or ship
was at a similar stage of construction.

: 1997
: 1999

App. 19
1.5.3

Date of delivery

1.6

Major Conversion (if applicable)

1.6.1

Date of conversion contract,

1.6.2

Date on which conversion was
commenced

1.6.3

Date of completion of conversion

.1.7

The ship has been accepted by the Administration as a “ship delivered on or before
31 December 1979”

1999

&

2

EQUIPMENT FOR THE CONTROL OF OIL DISCHARGE FROM MACHINERY
SPACE BILGES AND OIL FUEL TANK, (regulation 14 and 16)

2.1

Carriage of ballast in oil fuel tanks.

&

2.1.1

The ship may under normal conditions carry ballast water in oil fuel tanks.

&

2.2

Type of oil filtering equipment fitted:

2.2.1

Oil filtering (15 ppm) equipment (regulation 14 (6))

&

2.2.2

Oil filtering (15 ppm) equipment with alarm and automatic stopping device
(regulation 14 (7))

m

2.3

Approval standards 1

2.3.1

The separation / filtering equipment:
1.- has been approved in accordance with resolution A.393(X)
2.- has been approved in accordance with MEPC 60(33)
3.- has been approved in accordance with resolution MEPC 107(49)
4.- has been approved in accordance with resolution A.233(VII)

&

0
&
&
&

1 Refer to the Recommendation on International performance and test specifications of oily-water separating
equipment and oil content meters adopted by the Organization on 14 November 1977 by resolution A.393(X), which
superseded resolution A.233(VII). Further reference is made to the guidelines and specifications for pollution
prevention equipment for machinery space bilges adopted by Marine Environment Protection Committee of the
Organization by resolution MEPC.60(33), which effective on 6 July 1993, superseded resolution A.393(X) and
A.444(XI) and the revised Guidelines and specifications for Organization by resolution MEPC.107(49) which effective
from 1 January 2005, superseded resolution MEPC. 60(33), A.393(X) and A.444(XI).

App. 20
2.3.2

The process unit has been approved in accordance with resolution A.444(XI)

2.3.3

The oil content meter:
1.-has been approved in accordance with resolution A.393(X
2.- has been approved in accordance with resolution MEPC.60(33)
3.- has been approved in accordance with resolution MEPC. 107(49)

B-

m

s
&

2.4

Maximum throughput of the system is 0.57 m3/h

2.5

Waiver of regulation 14.

2.5.1

The requirements of regulation 14.1 or 14.2 are waived in respect of the ship in
accordance with regulation 14.5

B-

2.5.1.1 The ship is engaged exclusively on voyages with special area(s)

&

2.5.1.2 The ship is certified under the International Code of Safety for High Speed Craft
and engaged on a schedule service with a turn-around time not exceeding 24 hours.

B

The ship is fitted with holding tank(s) for total retention on board of all bilge
water as follows

2.5.2

Tank Identification

Tank Location
Frame (From-to)
Lateral Position

-B

Volume (m3)

Total Volume (m3)

3

MEANS FOR RETENTION AND DISPOSAL OF OIL RESIDUES (SLUDGE)
(regulation 12) AND BILGE WATER HOLDING TANKS (S)2

3.1

The ship provided with oil residue (sludge) tanks as follows:

Tank Identification
Sludge Tank

Tank Location
Frame (From-to)
Lateral Position
79-86
Port-Center
Total Volume (m3)

Volume (m3)
8.14
8.14

2 Bilge water holding tank (s) are not required by the Conventions, entries in the table under paragraph 3.3. is
voluntary.

$

«0

App. 21

3.2

Means for the disposal of residues in addition to the provisions of sludge tanks:

3.2.1

Incinerator for oil residues, capacity

1/h

&

3.2.2 Auxiliary boiler suitable for burning oil residues.

&

3.2.3 Tank for mixing oil residues with fuel capacity,

m3

&

3.2.4

Other acceptable means,

3.3

The ship is fitted with holding tanks for the retention on board of oily bilge water,
as follows:

&

Tank Location
Tank Identification

Frame (From-to)

Volume (m3)

Lateral Position

Total Volume (m3)

4

STANDARD DISCHARGE CONNECTION (Regulation 13)

4.1 This ship is provided with a pipeline for the discharge of residues from machinery
bilges and sludges to reception facilities, fitted with standard discharge connection in ^
accordance with regulation 13.
5

SHIPBOARD OIL POLLUTION EMERGENCY PLAN (regulation 37)

5.1

The ship is provided with a shipboard oil pollution emergency plan in compliance
with regulation 37.

m

5.2 The ship is provided with a shipboard marine pollution emergency plan in g_
compliance with regulation 37.3

5

4

App. 22

6

EXEMPTION

6.1

Exemption have been granted by the Administration from the requirement of
Chapter 3 of Annex I of the Convention in accordance with regulation 3.1 on those
Bitems listed under paragraph
of this Record

7

EQUIVALENTS (regulation 5)

7.1

Equivalents have been approved by the Administration for certain requirements of j—j
Annex I on those items listed under paragraph
of this Record.

THIS IS TO CERTIFY that this Record is correct in all respects.
Issued at: Miami

STAMPED

Date: 26th FEBRUARY 2009.

/S/
OVID LONDON
Surveyor to International Register of Shipping

■>

^

!)

App. 23
Equasis- Detail PSC

Ship Info

Inspection (27)

Ship History

Port State Control Info.
PSC Organization

US Coast Guard

Authority

United States of America

Port of Inspection

Miami, FL

Type of inspection

Standard Examination

Date of Report

04/05/2010

Detention

Yes

Duration (days)

78

Number of deficiencies

2

Particulars at the time of the inspection
IMO number

9210804

Name of Ship

ISLAND EXPRESS I

Call Sign

V4WU

Gross Tonnage

422

Type of Ship

General Cargo

Year of Build

1999

>

T‘

*

App. 24
Classification surveys at the time of the inspection
International Register of Shipping (IS)

Grounds for detention
MARPOL annex I
Deficiency

Control of discharge of oil

Defect

unspecified

Number

1

Class related deficiency

Yes

MARPOL annex I
Deficiency

Oil Filtering Equipment

Defect

unspecified

Number

1

Class related deficiency

Yes

https://www.equasis.org/EquasisWeb/restricted/DetailsPSC?fs=Shipinspection

V

^

V

App. 25

APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CASE No. 20-10124-BB
D.C. Docket No. 0:19-cv-62889-WPD;
0:18-cv-60984-WPD.
[Filed July 31st, 2020]
HUGO PENA
Appellant
v.
UNITED STATES OF AMERICA
Appellee
PETITION FOR PANEL REHEARING
Appellant Hugo Pena (Pena) respectfully request to file this Petition for Panel Rehearing
pursuant to F.R.A.P. 40.
JURISDICTIONAL ISSUE
As the court acknowledge from the outset, this case presents a jurisdictional issue of first
impression, not only in this Circuit, but in the country. Situations where important public policy
issues are involved, “All Lives Matter” and “Nobody is above the Law”, e.g. Pena's right to
recognition and equality before the law, creating wrong precedent to maritime treaty (MARPOL)
by abuse of power and unlawful discrimination, refers to unfair or unequal treatment of Hugo
Pena, where the position of Pena is clearly right as a matter of law, cause of action by intentional
altering Island Express identity by this prosecution, and “there is and was no other available
avenue of relief', suffering more than three years battling in the Southern District Court of
Florida after acquiring the exculpatory material evidence from Homeland Security by 19 CFR
Part 4 knowingly withheld by this prosecutor.

i-T

*

App. 26
This court acknowledge that "A writ of error Coram Nobis is a remedy available to vacate a
conviction when the petitioner has served his sentence and is no longer in custody, as is required
for post-conviction relief under 28 U.S.C. § 2255.”
The issue presented was, whether this Court should direct the district court to rule on Hugo
Pena petition for writ of error Coram Nobis based on “fundamental error" or "manifest injustice",
a St Kitts & Nevis Ship Cert., a clearly erroneous error as a matter of law, see MARPOL Art 5
(2), that were knowingly withheld by the Prosecutor from judges, jury and defendants and that
the other side has not been prejudiced. MARPOL Art 5 (2) provides:
“A ship required to hold a certificate in accordance with the provisions of the regulations is
subject, while in the ports or offshore terminals under the jurisdiction of a Party, to inspection
by officers duly authorized by that Party. Any such inspection shall be limited to verifying
that there is on board a valid certificate, unless there are clear grounds for believing that the
condition of the ship or its equipment does not correspond substantially with the particulars of
that certificate. In that case, or if the ship does not carry a valid certificate, the Party carrying
out the inspection shall take such steps as will ensure that the ship shall not sail until it can
proceed to sea without presenting an unreasonable threat of harm to the marine environment.
That Party may, however, grant such a ship permission to leave the port or offshore terminal
for the purpose of proceeding to the nearest appropriate repair yard available.”
This prosecution by AUSA Jaime Raich was aiding and abetting to perjury, breach of
fiduciary duty, rescission, in fraudulent forgery document CR-Gov.Ex:43 & 45, fabricated by
G&G Marine, Inc [Vessel Operation Company].
Pena’s argument was that under the express provision of MARPOL and Annex 1 to
MARPOL, it is the responsibility of the Flag State (in this case St Kitts & Nevis) to conduct
surveys and issue certificates, and therefore only flag state has jurisdiction to prosecute a
surveyor for failure to conduct a proper survey. In rejecting this argument, the court failed to
address and overlooked the current flag flagged the Island Express, (a St Kitts & Nevis Ship)
from April 15th, 2010 to May 11th, 2010, by willful suppression of exculpatory material
evidence, supported by issue Clearance Statement by the Homeland Security in 19 CFR Part 4,
and this court overlooked that Pena was banned and lacks access to Federal Register as U.S.
Customs and Border Protection to acquire this exculpatory material facts for his defense, after
wrongly conviction and since then, there is and was no other available avenue of relief (Panel
decision at 5) and is unfair or unequal treatment of Hugo Pena, thus, every person is equal before
the law and is entitled to the equal protection of the law without discrimination, and because the
suppressed exculpatory evidence was “material” and thus, is a Jurisdictional Error.

I*

App. 27
This is crucial because, as the court recognized, “A sovereign state has exclusive jurisdiction
to punish offenses against its laws committed within its borders, unless it expressly or impliedly
consents to surrender its jurisdiction.” (United States v. Pena, 684 F.3d 1137 (11th Cir. 2012),
Panel Decision at 13), citing Wilson v. Girard, 354 U.S. 525, 529 (1957). The Court also
recognized that, “Jurisdiction over foreign vessels in ports is frequently limited by treaty
agreement” (Id. Citing Restatement (Third) of foreign Relations Law § 512 cmt. 5 (1987).
Here, the Court found that Art. 4 (2) of the MARPOL Convention granted the United States,
as the port state, concurrent jurisdiction with the Flag Flagged the vessel at the time of MARPOL
violation. Art. 4 (2) provides:
“Any violation of the requirements of the present Convention within the jurisdiction of any
party to the Convention shall be prohibited and sanctions shall be established under the law of
the Party. Whenever such a violation occurs, that Party shall either: (a) Cause proceeding to
be taken in accordance with its laws; or (b) Furnish to the Administration of the Ship such
information and evidence as may be in its possession that a violation has occurred”.
Thus, this Court concluded that, “by signing the MARPOL treaty, the United States consented
to surrender its exclusive jurisdiction over violations within its ports, but it still maintained
concurrent jurisdiction to sanction violations of the treaty according to U.S. Law”. (United States
v. Pena, 684 F.3d 1137 (11th Cir. 2012), Panel Decision at 14) and this court overlooked that
Island Express is the subject matter and is a St Kitts & Nevis Ship, and there is a substantial
question that Hugo Pena is not a St Kitts & Nevis Surveyor overlooked by this court.
The error involves a matter of fact of the most fundamental character which has not been put
in issue or passed upon and which renders the proceeding itself irregular and invalid, Panel
Decision at 3. This court overlooked that Deletion Certificate by the flag flagged the vessel (St.
Kitts & Nevis), issued on May 11th, 2010, seven days after detention, and this prosecutor is
aiding and abetting to perjury, protecting the Island Express Operation Company, responsible in
the MARPOL violation.
This court overlooked that Pena did not have any duty to conduct any MARPOL inspection
under current flag flagged the vessel, (a St Kitts & Nevis Ship, call sign V4WU) and Pena never
had been onboard Island Express on April 15th, 2010 or before to conduct any MARPOL
inspection. Id PSC Organization, USCG, Equasis Web / Restricted / Ship inspection/IMO
9210804. Date of Report Inspection May 4th, 2010. (04/05/2010).
There is a substantial question that Island Express was detained on May 4th, 2010 when
vessel was sailing and operating under St Kitts & Nevis Authority and St Kitts Nevis Deletion
Certificate was issued on May 11th, 2010, seven days after detention and thus, summary
affirmance is not appropriate, cause of action by willful suppression of exculpatory material
evidence, 19 CFR Part 4.

*

App. 28
FRAUD UPON THE COURT & PROSECUTORIAL MISCONDUCTED
This court acknowledge by Judge Anderson; in his research wrote in United States v. Pena,
684 F.3d 1137 (11th Cir. 2012). “Thorough research reveals no case law, in this Circuit or any
other federal court, in which 33 U.S.C. § 1908(a) has been applied to prosecute a surveyor.
Instead, § 1908(a) has been used to prosecute owners, operators, and/or engineers of foreignflagged vessels for violating MARPOL by failing to maintain an accurate oil record book”
This court overlooked Prosecutorial Misconduct, (Panel Decision at 4) invoking Brady
Doctrine in the opposition to appellee's motion for summary affirmation, where Pena’s
unmasking the fraudulent scheme based on Jurisdictional Error and Prosecutorial Misconduct,
knowing use of perjured testimony and inflammatory argument before a jury, protecting the
owner and vessel operation company and this is shocking and it’s discriminatory, is unfair or
unequal treatment of Hugo Pena, in summary:
a) Pena’s fictitious name, was defrauded to Incorporated company by this prosecutor as a
company responsible on Island Express’s certification to protect Vessel Operation Company,
and thus, is a Prosecutorial Misconduct, putting Pena in double jeopardy because of rendering
invalid to judgement and,
b) aggravated by intentional defrauded Flag State Authority on April 15th, 2010 in this court by
willful suppression of exculpatory material evidence, federal Register, Foreign clearance 19
CFR Part 4 on regard of subject matter aiming to ambush Pena, and Pena lacks access to this
material evidence in deprivation of his right to defense and thus, is a Jurisdictional Error and
thus, is a Prosecutorial Misconduct.
This court overlooked that Pena offers merit-worthy supporting either to prove this assertion
or to show that it renders the proceedings irregular or invalid, e.g. Willful Suppression of
Exculpatory Material Evidence, (a) Clearance Statement by Homeland Security of United States
19 CFR Part 4, (b) Full Term International Oil Pollution Prevention Certificate issued by
International Register of Shipping, Inc. on behalf of St Kitts & Nevis and (c) Deletion Certificate
issued by St Kitts & Nevis Registrar on May 11th, 2010 after seven days of detention Island
Express, (Panel Decision at 5), and there is a substantial question that Hugo Pena is not a St Kitts
& Nevis surveyor, neither is the owner or operator of this vessel, (the subject matter).
However, the government and this court properly acknowledge that jurisdictional errors and
prosecutorial misconduct are fundamental errors that warrant Coram Nobis relief because they
render the proceeding irregular and invalid. May well be a proper ground for Coram Nobis relief
as a matter of law, (Panel decision at 5).
Therefore, there is not a MARPOL violation and count 27 and 28 should be dismissed.

r

^ <

App. 29
CONCLUSION
Based upon the foregoing reasons, Pena respectfully prays that this Honorable Court grant
rehearing and that it reverse his convictions and sentences, because the intentional suppressed
exculpatory evidence was “material” and thus, is a Jurisdictional Error and Prosecutorial
Misconduct, i.e. a fundamental error that warrant Coram Nobis relief and there was a separate
limit in subject matter, a St Kitts & Nevis Ship and thus, is merit-worthy to Appeal as a matter of
law and fact (Panel Decision at 2).
Respectfully submitted,
/S/
HUGO PENA
10241 NW 9th, St. Cir # 109
Miami, FL 33172
Telephone: 786-368-9545
Email: hpena01@yahoo.com
Petitioner Pro Se

[Certificate of Service omitted for this appendix]
Addendum 1 omitted and is offering in Appendix A (App 1-5)
Addendum 2 & 3 omitted and is offering in Appendix D (App 10-28)

App. 30

APPENDIX F
UNITED STATE DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
FORT LAUDERDALE DIVISION
Case Number: 0:10-60158-CR-WPD-004
USM Number: 91473-004
Criminal Jury Trial
TRANSCRIPT EXCERPTS
CROSS EXAMINATION by Mr. Horowitz (Pena’s counsel) to Mr. Greg Bishop (U.S. Coast
Guard Special Agent Investigator) (CR-DE.162: 62-63).
Mr. Horowitz: And "reflagging the vessel" means that the home port would be changed, and the
country of origin would be changed, correct?
Mr. Greg Bishop: That's true.
Mr. Horowitz: And in this case, it was from St. Kitts and Nevis to Panama, correct?
Mr. Greg Bishop: (Pause.)
Mr. Horowitz: And in this case, he was changing the flag nation of the vessel to G&G Marine
from St. Kitts and Nevis to Panama, correct?
Mr. Greg Bishop. That's correct.
Mr. Horowitz:

As a matter of fact, that process had not even been completed by May 4th,
correct?

